                                                                                                             09-P-0087
                   U.S. Environmental Protection Agency                                               January 27, 2009
                   Office of Inspector General


                   At a Glance

                                                                             Catalyst for Improving the Environment

Why We Did This Review             EPA Plans for Managing Counter Terrorism/
The Office of Inspector
                                   Emergency Response Equipment and Protecting
General (OIG) sought to            Critical Assets Not Fully Implemented
determine whether the
U.S. Environmental Protection      What We Found
Agency (EPA) effectively           EPA has progressed in implementing the counter terrorism/emergency response
implemented corrective             (CT/ER) initiatives, but is behind schedule in implementing the Radiation
actions to address findings and    Ambient Monitoring (RadNet) System. EPA encountered delays and problems
recommendations in our             with the administration of the contract. Further delays may occur as EPA may
previous report, EPA Needs to      need to modify installed monitors after testing is completed. As a result, the
Better Implement Plan for          Agency may have less information about the levels of radiation should a national
Protecting Critical                radiological or nuclear emergency occur.
Infrastructure and Key
Resources Used to Respond to       EPA has not fully implemented a national equipment tracking system. While
Terrorist Attacks and              some delays were due to technical issues, according to staff responsible for the
Disasters, issued in April         CT/ER system, unrealistic milestones for completing the project and limited
2006.                              resources also contributed to the nearly 2-year delay in implementing a national
                                   CT/ER equipment tracking system. Not having a functional national system to
Background                         track and manage equipment may impair EPA’s ability to protect public health
                                   and the environment in the event of another terrorist attack or other nationally
Homeland Security                  significant incident.
Presidential Directive No. 7,
issued in 2003, requires           For almost 2 years, EPA did not track corrective actions in the Management
Federal agencies to identify,      Audit Tracking System for the April 2006 audit report and did not notify the OIG
prioritize, and protect Critical   when it made changes to the corrective action plan. When the Agency started
Infrastructure and Key             tracking corrective action, the information was not accurate. Not properly
Resources from terrorist           tracking corrective actions may adversely affect the completeness and accuracy
attacks. In 2004, EPA issued       of the Agency's annual reporting process and reports to Congress.
its Critical Infrastructure and
Key Resources Protection           Our full audit report contains specific details on the areas where improvements
Plan (CIPP).                       are needed. However, because specific information on the initiatives is sensitive
                                   homeland security information, the full report is not available to the public.

                                   What We Recommend
                                   We recommend that EPA monitor the RadNet contract and develop a schedule for
                                   addressing concerns of the Science Advisory Board; identify milestones, account­
                                   ability, and resources for implementing the national CT/ER equipment tracking
                                   system; and accurately track the corrective actions in response to our 2006 report.
For further information,
contact our Office of              The Agency generally agreed with the proposed recommendations and provided
Congressional, Public
                                   corrective action plans, but disagreed with some of the report language.
Affairs and Management at
(202) 566-2391.                    Concerning the CT/ER equipment tracking system, EPA stated that it planned to
                                   have a pilot of the system completed by December 2007, and not the full system
                                   identified in the response to the 2006 report.
